 AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

POLICING SERVICES HIRING RECOVERY PROGRAM 

AND OFFICE OF JUSTICE PROGRAMS RECOVERY ACT 

 EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

  GRANTS AWARDED TO THE CITY OF PORTLAND, 

                    MAINE 





          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 



          Audit Report GR-70-13-008 

               September 2013 

    AUDIT OF THE OFFICE OF COMMUNITY ORIENTED

 POLICING SERVICES HIRING RECOVERY PROGRAM AND 

 OFFICE OF JUSTICE PROGRAMS RECOVERY ACT EDWARD 

    BYRNE MEMORIAL JUSTICE ASSISTANCE GRANTS

     AWARDED TO THE CITY OF PORTLAND, MAINE


                         EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General Audit
Division has completed an audit of an Office of Community Oriented Policing
Services (COPS) Hiring Recovery Program (CHRP) grant number
2009-RJ-WX-0414, and an Office of Justice Programs (OJP) Bureau of Justice
Assistance Recovery Act Edward Byrne Memorial Justice Assistance (JAG)
grant number 2009-SB-B9-2240, awarded to the Portland Police
Department, Portland, Maine (Portland). Collectively, the grants totaled
$2,041,241. The general purpose of the grants was to preserve jobs,
promote economic recovery, and increase crime prevention efforts. The
purpose of the COPS award was to increase community policing capacity and
crime-prevention efforts, and the purpose of the OJP award was to improve
the effectiveness and efficiency of state and local criminal justice systems.

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We also assessed Portland’s program performance in meeting the
grants’ objectives and overall accomplishments.

       We reviewed Portland’s compliance with key award conditions and
found Portland generally met the terms and conditions of the awards
governing most of the grant management areas we tested. However, we
identified one finding related to inaccurate application statistics submitted
with the city’s CHRP grant. To select CHRP grantees, COPS developed a
methodology that scored and ranked each applicant based on key data
submitted by the applicant. While COPS performed some limited data
validity checks, COPS relied heavily on the accuracy of the data submitted
by grant applicants. Specifically, we found inaccuracies with Portland’s
application data related to the total law enforcement budget for 2007 and
2008 and the unemployment rate reported for January 2009. Our finding
did not result in questioned costs.

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.


                                      -i­
       We discussed the results of our audit with Portland officials and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from Portland, COPS and OJP, and
their responses are appended to this report as Appendices II, III, and IV,
respectively. Our analysis of the responses, as well as a summary of actions
necessary to close the recommendation can be found in Appendix V of this
report.




                                     -ii­
                                 TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1

The Office of Community Oriented Policing Services ......................... 2

Office of Justice Programs............................................................. 2

American Recovery and Reinvestment Act. ..................................... 3

City of Portland, Maine. ................................................................ 4

Our Audit Approach ..................................................................... 4


FINDINGS AND RECOMMENDATIONS........................................ 6

Internal Control Environment ........................................................ 6

CHRP Application Statistics ........................................................... 7

Grant Expenditures and Accountable Property ................................. 8

Budget Management and Control..................................................11

Reporting ..................................................................................12

Drawdowns................................................................................14

Compliance with Other Award Conditions.......................................15

Program Performance and Accomplishments .................................18

Conclusions ...............................................................................20

Recommendation........................................................................20


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........21

APPENDIX II - CITY OF PORTLAND, MAINE RESPONSE

  TO THE DRAFT AUDIT REPORT.............................................23

APPENDIX III - OFFICE OF COMMUNITY ORIENTED
  POLICING SERVICES RESPONSE TO THE DRAFT AUDIT
  REPORT ...............................................................................24

APPENDIX IV - OFFICE OF JUSTIC PROGRAMS RESPONSE

  TO THE DRAFT AUDIT REPORT.............................................26

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
  CLOSE THE REPORT .............................................................28

                            INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of two grants awarded as part of the
American Recovery and Reinvestment Act of 2009 (Recovery Act) to the City
of Portland, Maine (Portland). These grants were an Office of Community
Oriented Policing Services (COPS) Hiring Recovery Program (CHRP) grant
and an Office of Justice Programs (OJP) Bureau of Justice Assistance (BJA)
Recovery Act Edward Byrne Memorial Justice Assistance Grant (JAG), in the
amounts of $882,528 and $1,158,713 respectively.

      The purpose of Portland’s CHRP Recovery Act award was to hire six
police officers into positions that would have been left vacant as result of
budget reductions. The officers were hired to continue Portland’s problem-
solving community policing efforts at the city’s four community policing
centers and to implement neighborhood based programs targeted to the
needs of community groups based throughout the city.

       The purpose of the JAG award was to avoid reductions in essential
public safety services by purchasing equipment, supplies, and technology
designed to enhance law enforcement capabilities. Portland agreed to act as
the fiscal agent and manage JAG Recovery Act funding for a consortium of
nine law enforcement agencies located in Cumberland County, Maine.

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
awards. We also assessed Portland’s program performance in meeting grant
objectives and overall accomplishments. The following table shows the total
funding for the grants.

              COPS Hiring and OJP Recovery Act Grants

                          Portland, Maine

      GRANT NUMBER       START DATE      END DATE                  AMOUNT
2009-RJ-WX-0414 (COPS)        07/01/2009        06/30/2012        $ 882,528
2009-SB-B9-2240 (OJP)         03/01/2009        02/28/2013       $1,158,713
          TOTAL:                                                 $2,041,241
Source: COPS and OJP




                                    -1­
The Office of Community Oriented Policing Services

       The Office of Community Oriented Policing Services (COPS), within the
Department of Justice, assists law enforcement agencies in enhancing public
safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. The COPS office provides
funding to state, local, and tribal law enforcement agencies and other public
and private entities to hire and train community policing professionals,
acquire and deploy cutting-edge crime-fighting technologies, and develop
and test innovative policing strategies.

Office of Justice Programs

      The mission of the Office of Justice Programs (OJP) is to increase
public safety and improve the fair administration of justice across America
through innovative leadership and programs. OJP works in partnership with
the justice community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

Bureau of Justice Assistance

       The mission of the Bureau of Justice Assistance (BJA), a component of
OJP, is to provide leadership and services in grant administration and
criminal justice policy development to support local, state, and tribal justice
strategies to achieve safer communities. BJA has three primary
components: Policy, Programs, and Planning. The Policy Office was
established to provide national leadership in criminal justice policy, training,
and technical assistance to further the administration of justice. It also acts
as a liaison to national organizations that partner with BJA to set policy and
help disseminate information on best and promising practices. The
Programs Office works to coordinate and administer all state and local grant
programs and acts as BJA's direct line of communication to states,
territories, and tribal governments by providing assistance and coordinating
resources. The Planning Office works to coordinate the planning,
communications, and budget formulation and execution, and provide overall
BJA-wide coordination.

American Recovery and Reinvestment Act

     On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of



                                      -2­
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to the COPS
Office for grants to state, local, and tribal governments to hire or retain
police officers. Another approximately $2 billion was provided to OJP for
Byrne JAG grants.

Community Oriented Policing Services Hiring Recovery Program Grant

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers. The
grants were competitively awarded based on data submitted by each
applicant related to fiscal and economic conditions, rates of crime, and
community policing activities.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      The Byrne Justice Assistance Grant (JAG) program is the primary
provider of federal criminal justice funding to state and local jurisdictions.
Recovery Act JAG funds supported all components of the criminal justice
system, from multi-jurisdictional drug and gang task forces to crime
prevention and domestic violence programs, courts, corrections, treatment,
and justice information sharing initiatives. These JAG grants funded projects
to address crime by providing services to individuals and communities, and
the projects were designed to improve the effectiveness and efficiency of
state and local criminal justice systems. OJP awarded these Recovery Act
JAG grants based on a state’s share of the national population as well as the


                                     -3­
state’s share of violent crime statistics. Local governments received direct
funding that was based on the local government’s share of total violent
crime within their state.

City of Portland, Maine

       Portland, the largest city in the state of Maine, is a business, financial,
and retail center. According to the city’s website, Portland’s metropolitan
area includes almost one quarter of Maine’s total population, with over
66,000 residents within the city’s borders. Portland is also reported to be a
popular cultural and vacation destination and attracts over three million
visitors in a typical year.

      The mission of Portland’s police department is to maintain a safe city
by working in partnership with the community to prevent and reduce crime,
protect life and property, and help resolve neighborhood problems. The
eight additional police departments participating in the consortium for the
JAG grant are all located in Cumberland County. To be eligible for JAG
Recovery Act funding the departments were required to submit a joint
application along with Portland. Portland agreed to act as the fiscal agent
for the group and officials developed a comprehensive Memorandum of
Understanding (MOU) describing the duties and responsibilities of each
consortium member. Portland required each member to acknowledge
receipt of the MOU by returning a signed copy to the city.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the award. Unless otherwise stated in our report, the criteria
we audit against were contained in the Code of Federal Regulations (CFR):
28 CFR § 66, the 2009 CHRP Grant Owner’s Manual, the Uniform
Administrative Requirements for Grants, the OJP Financial Guide, and the
terms and conditions of each grant award. We tested Portland’s:

      •	 Internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard award funds and ensure compliance with the terms and
         conditions of the awards.

      •	 CHRP application statistics to assess the accuracy of key
         statistical data that the grantee submitted with its CHRP application.

      •	 Grant expenditures and accountable property to determine
         whether the salaries and associated fringe benefits and equipment


                                       -4­
        (accountable property) charged to the awards were allowable,
        supported, and accurate, and whether effective procedures were in
        place for managing and safeguarding equipment acquired with OJP
        award funding.

     •	 Budget management and control to determine whether Portland
        adhered to the COPS and OJP-approved budgets for the expenditure
        of grant funds.

     •	 Reporting to determine if the required periodic Federal Financial
        Reports, Progress Reports, and Recovery Act Reports were
        submitted on time and accurately reflected award activity.

     •	 Drawdowns (request for grant funding) to determine whether
        requests for reimbursements were adequately supported and if
        Portland managed grant receipts in accordance with federal
        requirements.

     •	 Compliance with other award conditions to determine whether
        Portland complied with select terms and conditions of the awards.

     •	 Program performance and accomplishments to determine
        whether Portland achieved grant objectives and to assess
        performance and grant accomplishments.

      When applicable, we also test for compliance in the areas of matching
funds, indirect costs, monitoring subcontractors, and program income. For
these grants, matching funds were not required and there were no indirect
costs, subcontractors, or program income.




                                   -5­
                FINDINGS AND RECOMMENDATION

      We determined that Portland generally complied with the
      terms and conditions of the Recovery Act CHRP and JAG
      grants. However, we found Portland officials submitted
      incorrect law enforcement budget data and an incorrect
      unemployment rate in the CHRP application that could have
      impacted the city’s award eligibility. This condition and its
      underlying causes are discussed in the body of the report.

Internal Control Environment

       Our audit included a review of Portland’s accounting and financial
management system and Single Audit Reports to assess the risk of non­
compliance with laws, regulations, guidelines, and the terms and conditions
of the grant awards. We also interviewed management staff from Portland
and performed salary and fringe benefit and equipment expenditure testing
to further assess risk.

      According to the OJP Financial Guide, grant recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls. An acceptable internal control system provides cost and
property controls to ensure optimal use of funds.

      The Grant Manager told us she believed an adequate system of
internal controls was in place. However, our review of population and
budget data included in the city’s CHRP application showed that
improvements can be made in Portland’s system of internal controls in this
area. This internal control deficiency is discussed in the body of the report.

Financial Management System

      The Code of Federal Regulations requires recipients to maintain
records to adequately identify the source and application of grant funds
provided for financially supported activities. These records must contain
information pertaining to grant awards and authorizations, obligations,
unobligated balances, assets, liabilities, outlays or expenditures, and
income.

     We found that Portland maintained these records in two separate
accounts, one for the CHRP grant and another for the JAG grant. We
determined that the two accounts tracked obligations, outlays, and
expenditures allocated to each grant. We also determined that the



                                     -6­
accounting system in use by Portland was adequate to record the receipt
and expenditure of the federal grants we reviewed.

Single Audits

       We reviewed Portland’s Single Audit Reports for FY 2010 and 2011 and
found one audit finding that could have impacted the CHRP grant. The
audits identified deficiencies in the city's payroll process because some city
departments do not properly verify time worked by assigned employees.
However, during our testing of the salaries paid to CHRP grant funded
officers we determined Portland’s police department established a time and
attendance system that verified time worked by the officers.

CHRP Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate. 1
As a result, some agencies may have received grant funds based on
inaccurate applications. However, we were unable to determine the number
of applications that included inaccurate data.

       During this audit, we obtained documentation from Portland to support
the information it submitted to COPS to secure the 2009 CHRP grant and we
found inaccuracies in the information submitted in the CHRP application.
Specifically, we found an official reported the total law enforcement budget
incorrectly for 2007 and 2008. In both years, the budgets were
underreported on the grant applications by approximately 5 percent of the
total budgets. Portland officials also incorrectly reported the percentage of
the unemployed labor force as 7 percent in January 2009 when in fact the
correct unemployment rate at that time was 4 percent. In each of the three

      1
          U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).


                                         -7­
cases Portland officials used the correct source documents but submitted
statistics for the incorrect month or year.

       Because the application information was used to determine the
grantee’s eligibility to receive the grant, we analyzed the effect of the
inaccurate data elements that Portland submitted in its application. We
determined that the inaccurate data did not appear to have affected the
suitability of the award; therefore, we do not question the award of the
CHRP grant to Portland. However, because the data that grantees submit
are relied upon to award substantial grants, we believe it is vital that
grantees ensure that the data and information submitted to awarding
agencies is accurate. Because future inaccurate data may have a substantial
effect on award decisions, we recommend that Portland establish procedures
to ensure that it submits accurate information for its future grant
applications

      Officials acknowledged the incorrect application statistics and
developed a Standard Operating Procedure to address increased review and
oversight of the police departments grant applications.

Grant Expenditures and Accountable Property

      We found Portland met the terms and conditions of the CHRP
grant because officials only charged the entry-level salary approved in
the CHRP budget for each grant-funded officer. Officials also properly
charged only the fringe benefits that were approved in the CHRP grant.
We also found that Portland properly charged expenditures to the JAG
grant because all equipment purchases we tested for the equipment-
only JAG grant were fully documented and adequately supported.

COPS Hiring Recovery Program Grant

      We tested a judgmental sample of Portland’s salary and associated
fringe benefit expenditures to determine if they were allowable, supportable,
and accurate. To determine if expenditures were allowable, we compared
the expenditures to approved expenditures incorporated in the terms and
conditions of the grant. To determine if expenditures were supported and
accurate, we tested salary and benefit expenditures by evaluating the
allocation of salaries and benefits based on the requirements identified by
COPS in the award document. We examined officer payroll records for each
of the six grant funded officers for two non-consecutive pay periods, and we
tested accounting records supporting salary and fringe benefit expenditures
for two calendar quarters of the COPS grant.



                                    -8­
      According to the CHRP grant application and award documentation, the
CHRP grants were intended to provide 100 percent funding for the approved
entry-level salaries and fringe benefits of full-time sworn career law
enforcement officers. In cases where the officer’s salary and fringe benefits
exceeded that of entry-level officers, the additional costs are the
responsibility of the grantee.

        We found Portland officials segregated grant-funded expenditures into
separate accounts. Within the separate accounts, Portland officials verified
the salary and fringe benefits paid to each officer on a quarterly basis.
Because an officer’s total salary, not the required entry-level salary, was
initially reported in the accounting system, Portland officials calculated an
entry-level salary and fringe benefit target amount that they could not
exceed for each quarter. For example, officials removed an officer’s
overtime payments from the grant account. To ensure only entry-level
salaries were charged to the grant, at the end of each quarter officials
reconciled the accounting codes by deducting all salary expenditures above
the entry-level amount from the total salary and fringe benefits reported in
the accounting system. The results of this reconciliation reduced the total
salaries initially reported in the accounting system to the grant-approved
entry level salary.

      Portland received approval for five fringe benefits in its award
document: (1) health insurance, (2) life insurance, (3) pension contribution,
(4) Medicare, and (5) vacation and sick leave. COPS issued a Financial
Clearance Memorandum that approved funding for these benefits at a fixed
rate totaling 36.27 percent.

       We determined Portland’s methodology was accurate by comparing the
entry-level salary expenditures officials reported to the salary expenditures
we calculated using Portland’s methodology for the two quarters tested. We
verified the accuracy of the fixed rate fringe benefits by comparing the rates
reported by Portland to the fixed benefit rates we calculated. We used the
officer’s personnel folder to confirm each grant funded officer selected the
benefits that officials charged to the grant.

      In addition to verifying accounting records, we reviewed payroll
records and personnel files to ensure: (1) weekly payrolls were accurately
recorded in the accounting system, (2) supervisors reviewed and approved
the officer’s timesheets, and (3) grant-funded officers selected the grant
funded fringe benefits.

       Based on our review of payroll records, personnel files, and our
verification of Portland’s accounting methodology, we concluded that


                                     -9­
Portland officials met the terms and conditions of the grant for managing
CHRP salary and fringe benefit expenditures.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      We tested a judgmental sample of the JAG grant’s equipment
(accountable property) expenditures to determine if they were allowable and
supportable. We tested 26 equipment items purchased by consortium
members from our universe of 248 total items. To determine if expenditures
were allowable, we compared the expenditures to the award budget and
permissible uses of funds outlined in the OJP Financial Guide and
incorporated in the terms and conditions of the award. To determine if
expenditures were supported, we reviewed purchase documents, invoices,
and accompanying accounting system data.

      We found Portland officials segregated JAG grant-funded expenditures
into separate accounts. Officials established discreet accounting codes for
each of the consortium members. We found evidence that officials verified
that the equipment was included in the consortium members approved
budget before entering the item in the accounting system. Officials also
ensured that each consortium member followed the purchasing procedures
established for the City of Portland and we found evidence of supervisory
review, purchase order requests, and supporting invoices for each of the
transactions tested. Officials clearly outlined equipment purchase
procedures as well as other grant requirements in the MOU that each
consortium member was required to sign.

      We also visited five of the nine consortium police departments to
visually inspect a sampling of JAG grant funded equipment purchases. At
each of the sites we found that the consortium members: (1) maintained
the equipment in good working condition, (2) knew how to operate the
equipment, (3) worked closely with the Portland police department to ensure
equipment purchases were properly documented, and (4) confirmed that
procedures were in place to manage and safeguard equipment (accountable
property) according to grant requirements.

      We determined that Portland completed a comprehensive MOU to
address JAG grant equipment acquisition requirements for each consortium
member, and that officials accurately documented the equipment
acquisitions made by each member in the city’s accounting system.




                                   - 10 ­
Budget Management and Control

       Criteria established in 28 C.F.R 66 § 30 addresses budget controls
surrounding grantee financial management systems. According to the
C.F.R., grantees are permitted to make changes to their approved budgets
to meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. In
addition, the C.F.R requires that all grantees establish and maintain program
accounts which will enable separate identification and accounting for funds
applied to each budget category included in the approved award. Budget
management controls ensure federal funds are not exposed to unauthorized
expenses, misuse, and waste.

      COPS approved an itemized budget for the CHRP grant that included
budget categories for salary and fringe benefits. OJP officials reviewed the
itemized list of equipment requirements each consortium member included
in the JAG application. Both grants were still in progress at the time of our
audit field work, but our testing demonstrated that as of November 2012
Portland remained within the approved budget allowances for each grant
budget category.

COPS Hiring Recovery Program Grant

       The CHRP approved budget was based on the first year entry-level
officer base salaries, and associated fringe benefits based on the fixed
benefit rates approved in the Financial Clearance Memorandum. As noted
earlier in the report, Portland’s methodology to account for grant
expenditures included salary and fringe benefit target amounts established
for each calendar quarter. Portland followed the same methodology to
maintain expenditures within the required budget categories. We found that
by establishing target amounts for each quarter, Portland officials were able
to compare actual grant expenditures to the approved budgetary guidelines.

      We compared the total salary and fringe benefit expenditures from
Portland’s accounting records to the expenditures COPS approved in the
Financial Clearance Memorandum for the quarter ending September 2012.
We found that the city’s expenditures were within the approved budget
categories.

     Because city officials established and maintained program accounts to
enable separate identification and accounting for funds applied to each
budget category, and because expenditures remained within the 10 percent



                                    - 11 ­
total award allowable deviation, we concluded the city met the terms and
conditions of the award in the area of budget management and control.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

       In order to track grant expenditures and meet the terms and
conditions of the JAG grant, Portland included a projected budget in their
application based on the equipment requirements established by each of the
consortium members. Within the city’s accounting system, officials
established a discreet accounting code for each consortium member. Based
on the discreet accounting code and the budget approved in the grant
application, officials established a budget target for each consortium
member to ensure the members did not exceed their budgeted amount.
Before expenditures were entered into the accounting system officials
verified each consortium member requested reimbursement for only
equipment that was included in the application’s approved equipment list.
Portland also included discreet accounting codes for each equipment
category approved in the application. Officials compared actual expenditures
to the targets for each consortium member, verified the equipment was
included on the application of each consortium member, and compared
actual expenditures to the approved targets by each equipment category for
the Portland police department.

      We compared the total expenditures for each consortium member for
to the total equipment expenditures approved for each member in the grant
application for the period ending September 30, 2012. We found that each
consortium member remained within the budgeted amount approved in the
application. We also compared each budget category approved for the
Portland police department to the actual expenditures by budget category
and found Portland’s equipment purchases remained within the budget
guidelines established for the award.

Reporting

Federal Financial Reports

      The financial aspects of the grants are monitored through Federal
Financial Reports (FFRs). FFRs are designed to describe the status of grant
funds and should be submitted within 30 days of the end of the most recent
quarterly reporting period. For periods when there have been no program
outlays, a report to that effect must be submitted. Funds for the current
award or future awards may be withheld if reports are not submitted or are
excessively late.



                                   - 12 ­
      The grant manager told us she completed FFRs using the discreet
accounting codes established for each grant. We sampled four CHRP grant
FFRs between December 2011 and September 2012. We concluded the four
reports tested were accurate because the total expenditures reported in the
FFR agreed with the totals reported in Portland’s accounting records for the
CHRP award. We also tested each FFR for timeliness using the criteria noted
above and we found officials submitted each FFR timely. Because each of
the FFR’s we tested was accurate and submitted in a timely manner, we
concluded Portland officials met the financial reporting standards for the
CHRP grant.

      For the JAG grant we tested four FFRs between December 2011 and
September 2012. We found officials submitted each FFR timely. Each of the
four reports tested were accurate because the total federal expenditures
reported in the FFR agreed with the totals reported in Portland’s accounting
records. Because each of the FFR’s we tested was accurate and submitted in
a timely manner, we concluded Portland officials met the financial reporting
standards for the JAG grant.

Progress Reports

      COPS established a quarterly filing requirement for CHRP progress
reports. The reporting requirements included a survey that required
recipients to report the number of jobs created or saved by grant funding
and a self-assessment of the recipient’s progress toward meeting its
community policing goals. COPS did not require the recipients to maintain
documentation to support their self-assessment of community policing goals.
We sampled the last eight progress reports and found Portland submitted
each progress report within the required time period specified by COPS. In
addition, each report included all of the required reporting elements. We
concluded that Portland met the progress reporting requirement.

      The OJP Financial Guide established an annual progress reporting
requirement for JAG grants. The reports are due annually no later than
December 31. We reviewed the JAG progress reports Portland submitted
covering the annual periods ending in December 2010 and December 2011
and found Portland submitted each progress report within the required time
period specified by the OJP Financial Guide. The reports included, among
other things, a detailed narrative of each of the nine consortium member’s
progress towards meeting the grant’s goals.




                                   - 13 ­
Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding are required to submit quarterly reports which include
both financial and programmatic data. The Recovery Act requires recipients
to submit their reporting data through FederalReporting.gov, an online web
portal that collects all the reports. Recipients must enter their data no later
than the 10th of the month after each quarter beginning June 30, 2009.

      We examined the quarterly reports submitted for the CHRP grant for
the last two quarters and we found both of the reports included the required
elements and were submitted within the required timeframe.

      We examined the last two quarterly reports submitted for the JAG
grant and we found the reports included the required elements. Moreover,
Portland submitted a separate quarterly report for each of the nine
consortium members – generating a report of over 100 pages. We found
Portland officials filed both of the reports in a timely manner.

      Because Portland officials submitted each of the reports we tested
within the required timeframe and because the reports included all of the
required performance elements, we concluded that Portland met the
reporting requirements.

Drawdowns

      Drawdown is a term to describe when a recipient requests funding for
expenditures associated with a grant program. The OJP Financial Guide
establishes the methods by which DOJ makes payments to grantees.
Advances are allowed, but non-formula grant funding must be used within
10 days of the transfer. To determine if drawdowns were completed in
advance or on a reimbursement basis, we interviewed the grant manager,
analyzed bank statements and reviewed documentation supporting the
actual expenditures. We determined grant funds were requested on a
reimbursement basis for the CHRP grant and officials requested an advance
for one JAG drawdown. At the time of our fieldwork, award funding from the
single JAG advance had been expended and no outstanding advances
remained. After the initial advance, JAG reimbursements were requested on
a quarterly basis based on the actual expenditures for the quarter. At the
time of our fieldwork Portland’s drawdowns equaled the city’s approved JAG
expenditures.




                                     - 14 ­
COPS Hiring Recovery Program Grant

       At the time of our field work, Portland had requested funding for
$641,207 of the $882,528 total award, or nearly 73 percent. We examined
four drawdowns made between January 2012 and October 2012. Portland
used the segregated accounting codes for the CHRP grant to establish the
amount of funding requested for each drawdown. Because the grant funded
only entry-level salaries, Portland initially calculated the total cost of salary
and fringe benefit expenditures and then calculated the allowable grant
funded share based on the lesser of the total salary and benefit cost for the
quarter or the targeted quarterly allocation based on the approved budget.
For example, to support the January 2012 cumulative drawdown or quarterly
allocation of $56,071, Portland provided accounting records supporting
$59,506 of salary and fringe benefit expenditures – a difference of $3,435
which represented the city’s share of the expenditures for the quarter. The
city’s share included salary and fringe benefit expenditures above the entry
level or targeted amount as well as overtime and compensatory time off
payments.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

        At the time of our field work, Portland had requested funding for
$1,035,477 of the $1,158,713 JAG grant, or 89 percent. We examined three
drawdowns Portland made between October 2009 and July 2012. Portland
initially took an advance of $1,000,000, and took all subsequent drawdowns
on a reimbursement basis. The grant funded only equipment and Portland
used its accounting records to determine the quarterly funding requests. As
we noted earlier in the report, Portland’s accounting records included all of
the equipment purchases made by each consortium member during the
grant period. For example, during our drawdown testing to support the July
2012 cumulative drawdown total of $29,493, Portland provided accounting
records supporting $29,493 in equipment expenditures charged to the grant
during the preceding quarter.

      Because Portland could support their funding requests with accounting
records and because they addressed the potential for advanced payments
for the CHRP grant, we concluded that there were no significant deficiencies
related to Portland’s formulation of drawdown requests.

Compliance with Other Award Conditions

      Award requirements are included in the terms and conditions of a
grant and special conditions may be added to address special provisions
unique to an award. To ensure job growth or job preservation, the Recovery


                                     - 15 ­
Act stipulated that funds from both grants should be used to supplement
existing funding and not supplant, or replace, funding already appropriated
for the same purpose. The CHRP grant required recipients to plan to retain
all sworn officer positions funded by the award for one year after the grant
ended.

      Because Portland acted as the fiscal agent for each law enforcement
agency receiving JAG award funding officials were required to ensure each
consortium member or sub-recipient of award funding met the terms and
conditions of the grant.

CHRP Supplanting Analysis

      To ensure job growth or job preservation, the Recovery Act stipulated
that funds should be used to supplement existing funding and not supplant,
or replace, funding already appropriated for the same purpose. During our
audit, we completed an analysis of the number of jobs Portland preserved
with Recovery Act funding through the grants, examining the potential for
supplanting.

      Portland requested CHRP funding to retain six existing full-time
uniformed officer positions that were previously vacant. They received the
award to fund the officers hired into the six positions, that otherwise would
remain vacant as a result of events unrelated to receiving the federal
funding. To support its application for funding, Portland provided budget
documents that showed Portland planned to leave uniformed officer positions
vacant if they were unable to obtain Recovery Act funding, and documents
explaining the department’s need for purchasing JAG-funded equipment
(accountable property).

       To eliminate the potential for supplanting after a recipient receives
award funding, the recipient is expected to maintain its local budget for
sworn officers during and after the period of the award. We examined the
Portland Police Department’s budget and the number of sworn officers or
full-time equivalents (FTEs) during the 2009-2013 budget years.




                                    - 16 ­
                        Portland Police Department

                   Total Budget and Full Time Equivalents

                          Fiscal Years 2009 to 2013


                                TOTAL              PLANNED    ACTUAL
        FISCAL YEAR
                               BUDGET               FTES       FTES

            2009            $11,856,765             160         157
            2010            $12,208,976             159         159
            2011            $12,443,103             162         158
            2012            $12,778,938             163         158
            2013            $12,801,616             162         160
     Source: Portland Police Department

      As the table above demonstrates, between 2009 and 2013, Portland
increased its police department budget by almost $1 million and increased
the actual number of uniformed officers by three. Although the actual
number of FTE’s remained slightly below authorized, we spoke to officials
and reviewed documentation for police academy classes offered each year of
the grant. Portland also provided evidence of new hires to begin in January
2013. Although Portland reduced the planned number of officers in both
2010 and 2013, officials provided evidence that the reductions were
unrelated to the receipt of grant funding. We determined that the
reductions in planned FTEs were related to city-wide budget reductions.

      Because Portland did not reduce its sworn officer budgets and the
reductions in the authorized numbers of FTE’s were unrelated to grant
funding, we concluded that Portland met the grant’s non-supplanting
requirement.

JAG Supplanting Analysis

       Portland received JAG grant funding to purchase new equipment,
supplies, travel and training, contracts, and other project-related costs for
itself and a consortium of eight other police departments in Cumberland
County, Maine. We asked each consortium member to provide us with a
letter certifying that they were aware of the terms and conditions of the
grant and that grant funding was not used to supplant local funding.
Without exception each consortium member confirmed in writing compliance
with the non-supplanting requirement.




                                          - 17 ­
CHRP Retention Planning

       The formula based JAG equipment grant did not include a requirement
to address retention planning. However, the CHRP grant required recipients
to plan to retain all sworn officer positions funded by the award for one year
after the grant ends. Grant recipients are expected to add grant funded
officers to their projected budgets with local funds. The number officers
retained should be over and above the number of locally-funded positions
that would have existed in the absence of the grant.

      The grant manager told us she was aware of the requirement to retain
grant funded officers with local funding. Since the grant will end during the
FY 2013 budget period, we reviewed the 2013 budget and the 2014
proposed budget and found the city included funding for the retention of six
grant funded officers in its 2013 budget and 2014 budget proposal.

Program Performance and Accomplishments

       The CHRP grant included an objective to preserve uniformed officer
jobs that would not have been funded if the city did not receive grant
funding, based on the job preservation objective contained within the
Recovery Act. The CHRP grant also included an objective to enhance
Community Policing. The objective of the JAG equipment grant was to
improve law enforcement programs throughout Cumberland County, Maine
by purchasing equipment, supplies, and technology designed to enhance
existing law enforcement capabilities.

COPS Hiring Recovery Program Grant

      As we noted earlier in the report, Portland received CHRP funding to
preserve six uniformed officer jobs. Our analysis of the potential for
supplanting confirmed that Portland preserved the six uniformed officer jobs
that would have been eliminated in the absence of grant funding.

       In the CHRP Application Guide, COPS identified the methods for
measuring a grantee’s performance in meeting the CHRP grant objectives.
According to COPS there were two objectives for the CHRP grant: (1) to
increase the capacity of law enforcement agencies to implement community
policing strategies that strengthen partnerships for safer communities and
enhance law enforcement’s capacity to prevent, solve, and control crime
through funding additional officers, and (2) to create and preserve law
enforcement officer jobs. Quarterly progress reports describe how CHRP
funding was being used to assist the grantee in implementing its community
policing strategies and detailing hiring and rehiring efforts were to be the


                                    - 18 ­
data source for measuring performance. However, COPS did not require
grantees to track statistics to respond to performance measure questions in
the progress reports. In addition, the grantee’s community policing
implementation rating, contained in the progress report, would not be used
in determining grant compliance.

       We interviewed the COPS and OJP grant managers, reviewed progress
reports, and budget documents and found evidence of community policing
related activities. For example, CHRP funding and the retention of six junior
officers allowed Portland to deploy more senior officers into the community
through the Senior Lead Officer (SLO) program. This program assigns select
officers to specific geographic areas where they provide a link between law
enforcement and the city’s neighborhoods to solve local problems, enhance
public safety, and address quality of life issues. SLO officers attend
neighborhood meetings, work with Community Policing Coordinators and the
neighborhood prosecutors to develop solutions to problems and coordinate
targeted law enforcement efforts that address local issues.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      OJP awarded Recovery Act JAG grants based on a state’s share of the
national population as well as the state’s share of violent crime statistics.
Local governments received direct funding that was based on the local
government’s share of total violent crime within their state. In accepting the
award, Portland agreed to act as the fiscal agent and administer the JAG
grant funding for Portland and a consortium of eight other local law
enforcement agencies located in Cumberland County, Maine. Each of the
consortium members purchased a variety of law enforcement equipment
that supported law enforcement’s efforts to maintain public safety in
Cumberland County.

      Portland provided evidence demonstrating how JAG-funded thermal
imaging equipment saved the life of an elderly man who had been lost in a
cold marsh for 9 hours. We visited four consortium sites and law
enforcement officials demonstrated the operation of JAG-funded equipment
that saved law enforcement resources because it: (1) allows citizens to file
complaints on line from a computer terminal located in a mall,
(2) automatically records and scans license plate information and opens a
case file, (3) automatically stores and secures controlled evidence including
firearms, and (4) provides real time information based on a link between
cameras mounted on patrol cars and computer terminals located in the law
enforcement building.




                                    - 19 ­
      From our review of the MOU, our verification of purchase orders and
receipts that supported equipment purchases, and our verification of
Portland’s budgeting procedures, we concluded that Portland verified that
each grant funded equipment acquisition met the terms and conditions of
the grant for the equipment purchases in our sample.

Conclusions

       We found Portland generally met the terms and conditions for the
CHRP and JAG grants we reviewed. Specifically, our audit results indicated
that Portland used grant funds for their intended purposes to retain officer
positions and purchase law enforcement related equipment, appropriately
managed and reported the use of those funds, and demonstrated that the
positions funded by the grant would be retained in the future.

     However, we found an inaccuracy in Portland’s CHRP grant application,
which highlights an internal control deficiency. As a result, we make one
recommendation to address the finding.

Recommendation

We recommend that COPS:

1. Ensure Portland develops internal control procedures to accurately report
   grant application statistics.




                                    - 20 ­
                                                              APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) CHRP application
statistics, (3) grant expenditures and accountable property, (4) budget
management and controls, (5) reporting, (6) drawdowns, (7) compliance
with other award conditions, and (8) program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we used sample testing while testing grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
high dollar amounts or expenditure category based on the approved grant
budget. This non-statistical sample design does not allow for the projection
of the test results to the universes from which the samples were selected.

      We audited a total of $2,041,241 provided through an Office of
Community Oriented Policing Services Hiring Recovery Program Grant and
the Office of Justice Programs, Bureau of Justice Assistance FY 2009
Recovery Act Edward Byrne Memorial Justice Assistance Grant awarded to
the City of Portland, Maine. Our audit concentrated on, but was not limited
to the initial award of the COPS grant in July 2009 and the JAG grant in
March 2009, through the end of our field work in December 2012.

       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against are contained in the Code of Federal Regulations: 28 CFR
§ 66, Uniform Administrative Requirements for Grants, the Office of Justice
Programs Financial Guide, and the award documents. We also reviewed
Portland’s most recent Single Audit for the period ending in June 2011 and
identified no findings that could impact the grant funding we audited. In
addition, COPS conducted a site visit that identified one significant finding


                                   - 21 –

related to unallowable overtime payments charged to the grant that could
have impacted the scope or methodology for our audit. However, during our
testing of grant expenditures, we found no evidence of overtime payments
charged to the grant because after the COPS visit Portland officials
strengthened existing internal controls over the allocation of salary
expenditures we tested.

      In conducting our audit, we tested Portland’s award activities in the
following areas: internal controls, CHRP application statistics, grant
expenditures and accountable property, budget management and controls,
reporting, drawdowns, compliance with other award conditions, and program
performance and accomplishments. In addition, we reviewed the internal
controls of the city’s financial management system specific to the
management of DOJ funds during the award period under review. However,
we did not test the reliability of the financial management system as a
whole. We also performed limited tests of source documents to assess the
accuracy and completeness of reimbursement requests and Federal Financial
Reports.




                                  - 22 ­
                                                                                                     APPENDIX II


         CITY OF PORTLAND, MAINE

    RESPONSE TO THE DRAFT AUDIT REPORT





August 20 , 2013


Mr. Thomas o. Puerzer
Regional Audit Manager
Office of the Inspector General
U.S. Department of Justice
701 Market Street, Suite 201
Philadelphia, PA 19106

Subject: Response to the draft audit report issued by the United States Department of Justice Office of
         the Inspector General to the City of Portland on August 19, 2013

Dear Mr. Puerzer:

Thank you for the opportunity to comment on the draft audit report of the Portland Police Department's
management of the Recovery Act Edward Byrne Memorial Justice Assistance Grant and the Cops Hiring
Recovery Program Grant. The Portland Police Department is in agreement 'Nith the single
recommendation issued as a result of the audit and has implemented a procedural change to prevent this
problem from recuning.

Specifically, the audit report reconnnended "Portland establish procedures to ensure that it submits
accurate information for its future grant applications." Innnediately following the completion of the on­
site audit, my staff drafted a mcxlification to our Standard Operating Procedures requiring that all grant
applications be reviewed for accuracy prior to submission. This modification became effective January 7,
2013.

My staff and I sincerely appreciate the professionalism of the Department of Justice auditors. They issued
clear and direct requests for information, provided insight into the audit function, and made several "best
practices" reconnnendations that 'Nill further improve the Department's grant management processes.
They also reaffirmed our concentrated effort to properly manage grants in accordance "With all applicable
lalNS, regulations, and grant terms and conditions.

If you have any questions regarding this response, please contact me at (207) 874-8601 or
mjs@oortlandmaine. gov .

Sincerely,

m.d~
Michael J. Sauschuck
Chief of Police




                    109 Middle Street, Portland, Maine 04101   (207) 874-8479   wW'N.portiandmaine.gov




                                                     - 23 ­
                                                                                         APPENDIX III

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT



                 U.S.   DEPARTMENT OF JUSTICE
                 OFFICE OF COMMUNITY ORIENTED POLICI NG SERVICES

                 Grant Operations Directorate/Grant Monitoring Division
                                                                                            COPS
                 145 N Street, N.E., Washington, DC 20530



                                                MEMORANDUM


    To:            Thomas O. Puerzer
                   Regional Audit Manager
                   Philadelphia Regional Audit Office
                   Office of the Inspector General

    From:          Melanie V. Shine41!
                   Management Analyst

    Date:          August 29, 2013

    Subject:       Response to the Draft Audit Report for the City of Port land, ME

           This memorandum is in response to your August 19,2013 draft audit report on COPS
    CHRP Grant #2009RKWX0414, awarded to the C ity of Portland, Maine (Portland). For ease of
    review, the audit recommendation is stated in bold and underlined, followed by a response from
    COPS concerning the recommendation.

    Recommendation 1 - Ensure Portland develops internal control procedures to accurately
    report grant application statistics.

           COPS concurs that grant applicants should accurately report statistics in grant
    applications.

    Discussion

             Portland provided a copy of the Standard Operating Procedure developed to ensure that
    accurate statistics are reported in future grant applications (paragraphs IV.F .2.a through IV. F .2.c
    of the attachment). Based on the Standard Operating Procedure, the Planning and Research
    Coordinator (PRC) wi ll prepare the grant appli cation and give it to the Principal Financial
    Officer (PFO) for review. The PFO will focus on checking the accuracy of statistical data and
    budgetary infonnation included in the grant application. The PFO will return the appl ication for
    the PRe to make any necessary corrections to the data and continue the application process.
    Requiring the PFO to review the statistics will help to ensure accuracy of the data submitted in
    the grant application.

    Request

             Based on the discussion, COPS requests closure of Recommendation I and the audit
     report. In addition, COPS requests written acceptance of the determination from your office.



                                                    ..
     ADVANCING PUBLIC SAFETY THROUGH COMMUN ITY POLICING




                                                 - 24 ­
Thomas O. Puerzer
Regional Audit Manager
Philadelphia Regional Audit Office, OIG
August 29, 2013
Page 2


        COPS would like to thank you for the opportunity to review and respond to the draft
audit report. Jfyou have any questions, please contact me at 202·616·8124 or via e·mail:
melonie.shine@usdoj.gov.


cc:    Richard P. Theis
       Justice Management Division

       George Gibmeyer
       Grant Monitoring Division

       Joseph Gray
       City of Portland

       Michael Sauschuck
       City of Portland

       Grant File: 2009RKWX0414 (CHRP)

       Audit File


ORI:    ME00305




                                           - 25 ­
                                                                                     APPENDIX IV


          OFFICE OF JUSTICE PROGRAMS

      RESPONSE TO THE DRAFT AUDIT REPORT


                                                   u.s. Depa rtmen t of Justice
                                                   Office ofJustice Programs

                                                  Office ofAudit, AssessmenT, and Management



                                                 """hongl_. D_C ]()JJJ


      SEP   ~   6 2013


MEMORAND UM TO:               HlOmas O. PuerLCr
                              Regional Audit Manager
                              I'niladelpnia Re gional Audit Office
                              Office of the Inspector General

FROM:                         Maureen A. Henneberg
                              Director ~~t

SUBJECT :                     Response to the Draft Audit Report, Audi/ of/he Office of
                              Community Oriented Policing Services Hiring Recovery Program
                              and Office ofJustice Programs Recovery Act Edward Byrne
                              Memoria' Justice Assislance GranTs Awarded to the City of
                              Portland, Maine

This memorandum is in response to you r correspondence, dated August 19, 2013, transmitting
tne subject draft audit report for the City of Portland, Maine. The draft report does nOI contain
any recommendations directed towards tne Office of Justice Programs (OJP). OJP has reviewed
the draft audit report and does not have any comments.

We appreciate the opport unity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Rev iew Division, on (202) 616·2936.

cc:     Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Denise O'Donnell
        Director
        Bureau of Justice Assistance

        Tracey Trautman
        Deputy Director for Programs
        Bureau of Ju~tice Assistance




                                             - 26 ­
1010:   Jamcs Simonson
        Budget Director
        Bureau of Justice Assistance

        Eileen Garry
        Deputy Director
        Bureau of Justice Assistance

        Amanda loCicero
        Budget Analyst
        Bureau of Justice Assistance

        Linda Hill-Franklin
        Grant Program Specialist
        Bureau of Justice Assistance

        Joshua Ederhcimcr
        Acting Director
        Office of Communiry Oriented Policing Services

        Marcia Samuels-Campbell
        Deputy Director, Operations
        Officc of Community Oriented Policing Services

        Richard P. Theis
        Assistant Director, Audit Liaison Group
        Internal Review and Evaluation Office
        justice Management Division

        QlP Executive Secretariat
        Control Number 2013 - 1414




                                                  2




                                            - 27 ­
                                                             APPENDIX V


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Portland Police
Department (Portland), the Office of Community Oriented Policing Services
(COPS), and the Office of Justice Programs (OJP) for review and comment.
Portland’s response is included as Appendix II of this final report, COPS’s
response is included as Appendix III, and OJP’s response is included as
Appendix IV. The following provides the OIG analysis of the responses.
Based on the OIG’s analysis of the response, this audit report is issued
closed.

Recommendation Number

  1. Closed. Portland and COPS concurred with our recommendation to
     ensure Portland establishes internal control procedures to accurately
     report application statistics.

     In its response, Portland provided a new protocol in the form of a
     Standard Operating Procedure (SOP) designed and implemented to
     enhance the review of grant application statistics.

     Based on our review and analysis of Portland’s newly implemented
     procedure, we consider this recommendation closed.




                                   - 28 ­
